     Office of Inspector General




Controls Over Laptops

          March 31, 2008
     Inspection Report No. 441
                                                  UNITED STATES
                           SECURITIES AND EXCHANGE COMMISSION
Office ofInspector
     General                                WASHINGTON, D.C. 20549


           To:       Corey Booth, Chief Information Officer

                     Cathy English, Acting Associate Executive Director, Office of Administrative
                     Services


           From: H. David Kotz, Inspector Gener'/f;pi

           Date: March 31, 2008

           Re:       Office of Inspector General- Controls Over Laptops Inspection (No. 441)

           Attached is our final inspection report on the Controls Over Laptops. Your
           comments to the draft report have been incorporated as appropriate.

           Management concurred with all 5 of our recommendations. We appreciate the
           courtesy and cooperation that was extended to our staff during this inspection.

           Attachment

           cc:       Peter Uhlmann
                     Diego Ruiz
                     Cristal Perpignan
                     Mark Degner
                     Daniel Lisewski
                     Darlene Pryor

                     Richard Hillman, GAO
                      Table of Contents
Executive Summary                                                    2
Objectives, Scope, and Methodology                                   3
Background                                                           3

Inspection Results                                                  4
      Policies                                                      4
      Inventory                                                     6
      Accountability                                                7
      Discussion of Management's Comments               :           8

      Appendices
           Definitions/Criteria from GAO, OMB and SEC       Appendix A
           List of Recommendations                          Appendix B
           Management's Comments                            Appendix C
                                                                                  Page 2




       CONTROLS OVER LAPTOPS

                     EXECUTIVE SUMMARY
The Office of the Inspector General of the Securities and Exchange Commission
conducts regular audits and inspections of Agency operations to promote the
effectiveness, in~egrity and efficiency of the SEC.
We conducted an inspection of the Office of Information Technology's (OIT) control
over laptops. Our inspection concluded that OIT does not have the proper
accountability over laptops. Although laptops are not considered accountable
property, they are sensitive items containing proprietary information, and if lost
could result in negatively affecting the SEC's image. The SEC is privy to an
enormous amount of non-public and sensitive market data and most of it is stored on
laptops. We are aware of OIT's encryption initiative and we commend them for this
necessary security control. However, this review looked at controls over laptops (the
equipment) and recognizes that encryption can mitigate the risk of data being
accessed, but this still does not eliminate the need to have proper accountability over
the equipment.
Based on our findings in this inspection, we recommend that laptops be deemed
sensitive property within the SEC and are accounted for properly. According to the
SEC's property management manual, sensitive property refers to items that have
characteristics deemed sensitive because they are potentially pilferable, dangerous,
vital to continued operations, or if lost could negatively affect the Agency's image.
We also determined that control over laptops is weak due to the lack of an inventory,
or another method of accountability to ensure that the SEC has an accurate account
of its laptops. Furthermore, we were unable to trace ownership of laptops to specific
individuals. Therefore, if a laptop were lost or stolen, the SEC would have difficulty
identifying its rightful owner. As a result of these weaknesses, laptops are susceptible
to loss and theft.
Commission management concurred with our five recommendations. Their formal
written response is included as Appendix C.




CONTROLS OVER LAPTOPS INSPECTION                                        MARCH 31, 2008
INSPECTION 441
                                                                                 Page 3



OBJECTIVES, SCOPE, AND METHODOLOGY
Our objective was to assess the adequacy of controls over laptops and compliance
with relevant guidelines. To accomplish our inspection objective, we:

   •   Interviewed members of the Office of Administrative Services' Property
       Management Office (PMO) and Office ofInformation Technology's Asset
       Management Branch (AMB).
   • Reviewed policies and procedures for control of laptops, existing laptops and
       movement from one location to another.
   • Reviewed physical inventory documentation.
   • . Evaluated the use of the SEC-406A Property Transaction Report Form (Form
       406A):
   •   Reviewed data found in hardware/software release reports in order to trace
       laptops from original purchase to issuance to an SEC employee.
   •   Analyzed a judgmental sample of hardware/software releases in calendar
       year 2007.

The scope of the inspection was limited to laptops only. This review did not look at
any other IT equipment or the data on the laptops. We did not look at the
procedures for acquisition, surplus or physical security ·of laptops. Consequently, our
review and report focus on data that could be obtained from OAS and AMB affecting
the overall efficiency and effectiveness of laptop controls and found deficiencies
which we believe warrant quick action.

We conducted this inspection from October 2007 to February 2008 in accordance
with the Quality Standards for Inspections, issued in January 2005, by the President's
Council on Integrity and Efficiency and the Executive Council on Integrity and
Efficiency.


                             BACKGROUND
This inspection was performed because of concerns within the Federal government
relating to the protection of sensitive property and information as well as the
discovery of internal problems within the SEC regarding the accountability of IT
equipment. We also recognize that establishing and maintaining effective
accountability controls over laptop computers is essential and necessary to ensure
that valuable and proprietary data is not lost or stolen, causing undue damage to the
agency and its image.


Responsibilities
PMO is responsible for the overall property management within the SEC. PMO
issues property management regulations to cover policies and procedures relative to:
   •   Requirement determinations.
CONTROLS OVER LAPTOPS INSPECTION                                       MARCH 31, 2008
INSPECTION 441
                                                                                   Page 4


   •   Acquisitions.
   •   Receiving.
   •   Controls.
   •   Maintenance.
   •   Accountability.
   •   Inventory.
   •   Utilization.
   •   Disposal.
The office also provides program oversight concerning organizational performance of
property management responsibilities and ensures compliance with SEC Property
Management Directives.
AMB is responsible for information technology asset management, inventory
tracking (software/hardware), and infrastructure upgrades/deployments. Their
duties include planning, coordinating and deploying management for releases of new
software and hardware throughout the SEC. AMB also plans, coordinates, and
oversees all physical moves of technology equipment and they oversee inventory
management and reconciliation for all technology equipment. AMB serves as the
inventory control point for the acquisition, storage and issuance of IT equipment.
AMB is the utilization coordinator for the reassignment and disposal of IT assets.
AMB and PMO interface regarding all IT property issues.



                       INSPECTION RESULTS
We found several issues with controls over laptops. We concluded that effective
accountability of laptop computers simply did not exist. First, the draft property
management policy does not identify Commission-wide items such as laptops as
sensitive property. Secondly, a Commission-wide inventory oflaptop computers has
not been performed since 2003. Thirdly, due to the absence of a baseline inventory,
we were unable to trace ownership of laptops to a specific individual. As a result of
these weaknesses, laptops are extremely susceptible to theft without detection.
We discussed the deficiencies mentioned above with OIT and OAS, and they agreed
to take action to resolve these issues.


POLICY
PMO is responsible for establishing the policy governing property management to
include laptops.

PMO'scurrent property management regulation and manual, SECR 9-2 and SECM
9-1, dated July 2003, state that the objective is to establish cost effective accounting,
tracking, and proper use of government property and its removal, transfer, or other
CONTROLS OVER LAPTOPS INSPECTION                                         MARCH 31 , 2008
INSPECTION 441
                                                                                                            Page 5


disposal in an authorized and appropriate manner. This policy although fairly old,
clearly outlines how the SEC will account for and control accountable property with
an acquisition cost of $5,000 or more, primarily through the use of conducting
inventories. The policy contains procedures for conducting inventories on
accountable property and moving and transferring furniture and equipment,
including IT equipment. It delegates authority for all IT equipment to OIT. Due to
the vast difference in costs of IT equipment, the SEC has both inventoried and non-
inventoried IT items. Consequently, laptops are accounted for as non-inventory
items and are not subject to an annual inventory.

The Commission's current policy delegates control of non-inventoried property with
an acquisition cost less than $5,000 to Directors and Office Heads within the agency.
The policy states that they are responsible for maintaining reasonable controls over
their non-inventoried property to safeguard it against improper use, theft, and
undue deterioration. It also states that special inventories over non-inventoried
property may be called for if deemed appropriate by PMO.

During this review we reviewed other Federal agencies policies on laptops and found
that they identified laptops as sensitive property and conducted annual inventories,
despite acquisition costs. The OIG believes that items such as laptops should be
identified as sensitive. SEC's current property management policy states that SEC
does not have sensitive property. We understand that OAS is currently revising this
policy. The draft policy indicates that the SEC may have sensitive property and
assigns the responsibility for identifying the sensitive property to Directors and
Office Heads.

We reviewed a recent GAOl report of the Department of Veterans Mfairs that was
similar in scope to this inspection and concluded "policies requiring annual
inventories of sensitive items, such as IT equipment... have not been enforced." SEC
has a similar q.eficiency; however, we found that policy requiring annual inventories
of sensitive items has not been developed primarily because the SEC has not
identified any sensitive property.

In order for sensitive property to be identified throughout the SEC and to ensure
that the issues with sensitive property are properly addressed, senior management's
involvement is imperative. Although PMO and AMB have taken some actions to
address issues over sensitive property, such as updating policies and procedures and
developing a spreadsheet to track the issuance of laptops; this task requires the
commitment and use ofIT specialists throughout the SEC.

Therefore, we believe that OAS should change the draft to identify agency-wide
sensitive property to include laptops. The policy should also establish a means to
account for and track the items through the use of annual inventories. In addition,
the policy should also require Directors and Office Heads that manage sensitive
items to put internal controls in-place which may include requiring receipt


1 GAO-07-11 OOT Entitled" Lack of Accountability and Control Weaknesses over IT Equipment at Selected VA Locations"
dated July 24, 2007, Testimony Before the Subcommittee on Oversight and Investigations, Committee on Veterans'
Affairs, House of Representatives.
CONTROLS OVER LAPTOPS INSPECTION                                                               MARCH 31, 2008
INSPECTION 441
                                                                                 Page 6


signatures, producing separate listings of sensitive items and/or limiting access to
sensitive items.

We recognize that sensitive items which do not meet the accountable and capitalized
property thresholds will not be included in the Accountable and Capitalized
Property System (TRAQs) but they still should be accounted for properly.


Recommendation A
OAS should revise its draft policy to identify Commission-wide sensitive items and
allow Directors and Office Heads to determine if they have additional items that
should be deemed sensitive.
Recommendation B
OAS should require a method of accountability for sensitive property that will
ensure that SEC has an accurate accounting of laptops.


INVENTORY
We found that a complete inventory of laptops has not been performed. In 2005,
AMB began a laptop inventory; however, AMB officials said it was not completed
due to resource constraints. AMB currently has a branch chief and staff of seven
individuals that are responsible for procurement, receiving, tracking, storage,
distribution, maintenance and the disposal of IT equipment. In order for them to be
able to properly account for IT assets, they must utilize the help ofIT specialists
throughout the SEC.
Our inspection further found that other Federal agencies track and account for
sensitive property such as laptops by conducting annual inventories. We tried to
determine the total number of laptops in the SEC and how many of them were
assigned to OIT, but could not get a definitive answer. When we asked AMB how
they accounted for the laptops within the SEC, we were told they rely on Microsoft
Systems Management Server (SMS), reports to give them an accounting. SMS is an
automated discovery tool used by SEC to capture information for equipment
attached to the network. This tool is effective for providing a snapshot of the
equipment logged onto the network and can be used to forecast network use, but we
believe it should not be used as an inventory tool because the results are too
sporadic. For example, the SEC has employees and contractors that are mobile, who
may not log onto the network on any given day. Thus, their equipment would not be
captured through SMS until they log on to the network.
OIG believes that a baseline inventory must be performed immediately for sensitive
property and AMB should solicit help from IT specialists (assigned to other offices
and divisions) within the SEC to conduct the inventory. '
Recommendation C
OIT, through AMB should complete a full inventory of laptops to establish a baseline
level.
CONTROLS OVER LAPTOPS INSPECTION                                       MARCH 31, 2008
INSPECTION 441
                                                                                                                        Page 7


 ACCOUNTABILITY
 AMB is responsible for the oversight of inventory management and the
 reconciliation for all technology equipment (i.e., accountable and sensitive property).
 This branch serves as the inventory control point for the acquisition, storage and
 issuance of IT equipment.
 In this review, we were unable to determine the total number of laptops within the
 SEC, and therefore, we concluded that sensitive property is not being appropriately
 controlled. The reason this has occurred is due to the lack of oversight over non-
 inventoried (sensitive) property. Accountability of sensitive property is crucial
 because sensitive property and the data that resides on the equipment could
 negatively affect the SEC's image. For example, an SEC laptop could have sensitive
 and valuable information pertaining to an ongoing enforcement investigation. If the
 laptop containing this information were lost or stolen, proprietary and stock-related
 information could be used improperly.
  We are aware of OIT's future plans to encrypt all laptops so that data will not be
  assessable in the event it is loss. We commend OIT for this needed security control.
  Although encryption can mitigate the risk that data is illegally accessed, it still does
. not eliminate the need to have proper accountability over the equipment. AMB has
  not established and ensured consistent implementation of effective controls for
  accountability. They are in the process of revising the procedures, however, most of
  the current procedures primarily address accountable property, and very little is
  discussed about how to account for sensitive property such as laptops.
 In performing this inspection we asked AMB how they accounted for and tracked
 laptops to users within the SEC. They responded that since laptops were not
 accountable property, they do not have a policy in-place to account for them other
 than through SMS. They also stated that they recently developed a
 hardware/software release report and can provide the Form 406A (supporting
 property transaction forms) for the equipment identified in the report. However, we
 found that the report only shows equipment that has been released since January
 2007. Prior to the release report, a centralized record for laptops was not in
 existence for laptops that were assigned to a specific user. Therefore, based on the
 information received from AMB and our review, we concluded that the SEC does not
 have appropriate control over its laptops and is unable to trace ownership of laptops
 to a specific SEC employee. This problem exists for two reasons. First, laptops are
 not accountable property, and therefore, AMB does not have a policy or procedure to
 account for them. Secondly, as outlined below, the process for issuing laptops is
 confusing and the information on the Form 406A is inaccurate or incomplete.
 Issues with the Property Transaction Form 406A
 The lack of accountability with individual users of IT equipment poses a risk of loss,
 theft, and misappropriation2 . AMB's current process relies on the Form 406A as its
 record of who is accountable for the equipment. From the data AMB provided we
 could not determine what individual employees were accountable for the equipment
 because the Form 406A was incomplete and inconsistently applied.

 2 "As used in this report, theft and misappropriation both refer to the unlawful taking or stealing of personal property, with
 misappropriation occurring when the wrongdoer is an employee or other authorized user."
 CONTROLS OVER LAPTOPS INSPECTION                                                                        MARCH 31, 2008
 INSPECTION 441
                                                                                Page 8



A judgmental sample pulled from the hardware and software release report of the
completed Form 406A on file with AMB revealed that the procedures are
inconsistently implemented. We found that there were important details missing
from the form such as, the contact information of the person receiving the laptop
(printed name, phone and room number), as well as, the details of why the
equipment was given to the person (i.e., new employee, loaner) Specifically, we
found the following issues:
   •   Remarks indicated equipment was released to employees who did not have
       possession of the equipment.
   •   Laptops were released to individuals that we could not locate or determine if
       they were employed by SEC.
   •   Laptops appeared to be released as loaners and did not show that they were
       returned.
   •   Laptops were given to other SEC employees whose names did not appear on
       the form.
The lack of user level accountability and inaccurate records on status, location, and
item descriptions make it difficult to determine who is responsible for laptops and
the data on the equipment.


Recommendation D
OlT, through AMB should revise the procedures to establish clear accountability for
laptops. Among these procedures there should be included a requirement that
documents the issuance and receipt of the equipment to a specific SEC employee.


Recommendation E
OAS should specify a form to account for sensitive property. This form needs to
include contact information of the person receiving the equipment (i.e., printed
name, number, email, and location).



DISCUSSION OF MANAGEMENT COMMENTS
Commission management concurred with all of our five recommendations. Their
formal written response is included as Appendix C.




CONTROLS OVER LAPTOPS INSPECTION                                       MARCH 31, 2008
INSPECTION 441
                                                                                Page 9


                                                                   APPENDIX A


Definitions/Criteria from GAO, OMB and SEC's
Internal Policy and Procedures

TRAQ. The Official Agency Accountable Property System used to record all
transactions for accountable property.
Accountable Property. Identifies items of personal property with an acquisition
cost of $5,000 and above and all leased property regardless of dollar value.
Accountable property must be tracked on individual property records in TRAQ and
is subject to annual wall to wall inventories.
Sensitive Property. Items designated by a Director or Office Head to have
characteristics deemed sensitive because they are potentially pilferable, dangerous,
vital to continued operations, or if lost could negatively affect the Agency's image.
Microsoft Systems Management Server. An automated discovery tool used on
the SEC network. It allows SEC to capture information for equipment attached to
the network, and distribute relevant software and updates to SEC workstations.
SMS also provides useful reporting functions against any SEC workstation with
SMS Client software installed.

Property Management Program SECR 9-2, dated July 2003. Prescribes the
policies and procedures used in accounting for personal property purchased, leased,
or loaned by the SEC. It applies to all SEC employees. Its overall objective is cost
effective accounting, tracking, and proper use of government property and its
removal, transfer, or other disposal in an authorized and appropriate manner. This
policy states that the SEC has determined it does not have any sensitive items.

Property Management Program Manual SECM 9-1, dated July 2003.
Provides guidance and instruction on implementing the SEC's Property
Management Program (PMP) and supplements the regulations found at SECR 9-2
and the operating instructions for the PMP automated tracking system. It
designates OIT as responsible for assigning IT equipment to Divisions/Offices; for
transferring and moving equipment from one Division/Office to another, including
regional offices, and documenting the assignments/transfers on Form 406A.

GAO, Standards for Internal Control in the Federal Government, dated
November 1, 1999. Requires agencies to establish physical controls to safeguard
vulnerable assets, such as IT equipment, which might be vulnerable to risk ofloss.

OMB Circular No. A-123, dated December 21, 2004. States funds, property, and
other assets are safeguarded against waste, loss, unauthorized use or
misappropriation.


CONTROLS OVER LAPTOPS INSPECTION                                      MARCH 31, 2008
INSPECTION 441
                                                                                 Page 10


                                                                . APPENDIXB


                LIST OF RECOMMENDATIONS

Recommendation A
OAS should revise its draft policy to identify Commission-wide sensitive items and
allow the Directors/Office Heads to determine if they have additional items that
should be deemed sensitive.


Recommendation B
OAS should require a method of accountability for sensitive property that will
ensure that SEC has an accurate accounting of laptops.


Recommendation C
OIT, through AMB should complete a full inventory of laptops to establish a baseline
level.


Recommendation D
OIT, through AMB should revise the procedures to establish clear accountability for
laptops. Among these procedures there should be included a requirement that
documents the issuance and receipt of the equipment to a specific SEC employee.


Recommendation E
OAS should specify a form to account for sensitive property. This form needs to
include contact information of the person receiving the equipment (i.e. printed
name, number, email, and location).




CONTROLS OVER LAPTOPS INSPECTION                                     MARCH 31, 2008
INSPECTION 441
                                                                            Page 11


                                                                APPENDIXC

                 MANAGEMENT'S COMMENTS

March 14,2008


To:   Renee Stroud
      Manager for Information Technology Audits
      SEC,OIG

From: Cathy English
      Acting, Associate Executive Director
      Office of Administrative Services

Re:   Comments to Draft Laptop Controls Inspection Report


Thank you for including us in the Review of the Draft Laptop Controls Inspection
Report. Our comments reflect the Office of Administrative Services perspective
and responsibilities and focus on overall policy for SEC-wide property and do not
address OIT specific concerns or processes.

We agree with your position that laptops should be deemed sensitive items and
should be annually inventoried and have internal controls in place. Our overall
concern is distinguishing the difference between the accountability processes for
sensitive items versus accountable and capitalized items. We agree with
Recommendations A & B, but hope the language can be clarified to avoid
confusion.

We suggest that Recommendation A be reworded to read the following:

OAS should revise the SEC's draft policy to identify Commission-wide sensitive
items and allow the Directors/Office Heads to determine if they have additional
items that should de deemed sensitive. The policy should also require that
Directors/Office Heads who manage those sensitive items should have in place
internal controls, which may include receipt signatures, separate listings and/or
limited access. Sensitive items which do not meet the accountable and
capitalized property thresholds will not be included in the Accountable and
Capitalized Property System (TRAQs).

We suggest that Recommendation B be reworded to read the following:

OAS should revise the SEC draft policy to require Directors/Office Heads to

CONTROLS OVER LAPTOPS INSPECTION                                    MARCH 31,2008
INSPECTION 441
                                                                          Page 12


conduct annual inventories of sensitive items such as laptops.

Finally, we suggest that Recommendation E be revised to help further avoid
confusion of the accountable and sensitive property processes by using the form
SEC 2040 (8-83) Hand Receipt for Sensitive Items, rather than the form 406A.
We suggest that Recommendation E be reworded to read the following:

OAS should revise the form 2040 (6-83) to include contact information of the
person receiving the equipment (i.e. printed name, number, e-mail, and location.

Again, thanks for the opportunity to comment.




CONTROLS OVER LAPTOPS INSPECTION                                  MARCH 31, 2008
INSPECTION 441
                                                                                                                        Page 13


                                                                                                   APPENDIXC

         MANAGEMENT'S COMMENTS (cont.)




         :'bn"ch 31, 2008


         TO:              David .K.otz
                          Tl}ijJ)cetor General

         f1tOM:           CfII'ey Thwllh   IIltt/
                          ChierlntQrm!l~-?OrJiCl.:T
         Re:              Comml:1W on laptop COlltl'fil!' audir (Nf). 441)

         Thmk you for yow' office'" hurd wwk on this inspection, and fot HI e UPPl,lr!Unity to review
         lind conuncnt au the fil1djll~~. AI) yuulrnuw, we fully support the agency';! c;'jhrL~ to
         impTllyt~ i~ inte:md controls., <lnd erl!.utin~ appropriate !lccDUnt:!blJity O\·-er the agency's IT
         equjpm~l i& clC(lrly a."l impo.rrant iRsue.


         \Vc OOllcur with the mG',," Ill<se~~IT.I(:[ltthat "'"e should impnwe aUL:Oun tl'bility o~!cr' JaJ}top->.
         Thi~ impr(JI.,\:d tlcooWltability lllArlh widl the d~sigllatiOJl of laptafts ll~ 1tt:T1>liLiw,: property. We
         J)grt:~ thllt this d;;signlltion is warrarll.cll h:=":Ul)8t; lIUhough Japrops are I\OLIlLllerwitJ<;l wvcrcd
         wIder Lht: a~n\;y'!> 8Ct'lluntalJle-propetty contmll' bet:illl~c uf tIleir (jdJar v:llue, [hey are
         Ilcvm1heJ.es.,> valuablt: llnd bighlyportalJle pieces of e~uij1mentthl¢ should be managed
         appropritlrely CO f1mt~~t lhl.: agency' s ima?;~. Some conCt=m ~ v>ere lllm rnised during the aulB
         rogm:ding rhe sen ~ iti ~'': nll(v~ Q[ tho.; infunnalion srored (} n agen~y I~wps, :md the pat<mtial
         ri::lks of comprollli~in8[lIe OlmJidcTltililit)' of ;hat infollllluion. I rOW~,.:T> orr is curJemly
         r,:n,l.:I'ypting all laptops IbroughllUL thv SEC; fuc ini.tiative wilt be c(lmplell: by the coo of JWl~
         2008. which should rcJlJ~' 1tliR ril'k rIl:X I~bl~ guing forward. As a remlt, OUt primary
         Corl~rn i ~ .'4 fT the vaIn e of the h:lrol;l:<,re lli;llebL


         The fCPOlt re~('Ill1mJ:l1dll lJ.liet of specific mea."ues 10 i mpmy J: Ji!pWp aCl:ountllbiliry,
         including J'egular] j" SoCII edu kll i:JVCIltOl1CS tlnd impr-oved docurnen lJlli(ln (lfllfJJOOP issu:mc:e.
         We intend ro do so 1Yith a CllmbiIl.lltion of autQlllated tools and mlUluul I:ffort. We will also
         work closely wilh .he 0 lTil:~ of Administrative ScrvicC3 to en~UI'e tCI<II'\li naUOO W a pulicy
         ll:vd, as well as with tIl e 1/llfil1UR other he~dgu~rtcrr. and regional offices whose IT sp.;lI:ill1ists
         diillnolJW, main_ aud uanstetlaplop!- ~l1l)lbcr C'quipmcnt 'Within those offi.:;es.

         w~ IIm1 ILJrwar~l W impl.;mcntin,g these mell:'>UJ'e!' to illlftMve luplllI' IJ£,:OOuuta\)ility ao(f
         cvnn'oL We appre~i0le Lbe OTG's ongoing su~port in ~lpjJlg 11.<: buHull mme dfcctivc
         infonnaticll tecllllology fl!'0!,'T'llm r(lI' the Commission.




CONTROLS OVER LAPTOPS INSPECTION                                                                           MARCH 31, 2008
INSPECTION 441
